Loa
I

C@OQCKLE

2311 Douglas Street Le ga 1 Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 20-890

STANFORD VINA RANCH IRRIGATION COMPANY,
Petitioner,
Vv.

STATE OF CALIFORNIA, STATE WATER RESOURCES
CONTROL BOARD, STATE WATER RESOURCES
CONTROL BOARD MEMBERS FELICIA MARCUS,
DOREEN D’ADAMO, FRANCES SPIVY-WEBER,
STEVEN MOORE, AND TAM DODUC;

AND DOES 1 THROUGH 20,

Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of February, 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTRAL DELTA WATER
AGENCY IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI in the above entitled case. All parties required to be
served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DANTE JOHN NOMELLINI, SR.
Counsel of Record
NOMELLINI, GRILLI & MCDANIEL
PROFESSIONAL LAW CORPORATIONS
235 East Weber Avenue
Stockton, California 95202
(209) 465-5883
ngmplcs@pacbell.net
Counsel for Amicus Curiae

Subscribed and sworn to before me this 4th day of February, 2021.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Chi,
h RENEE J. GOSS 9. &.
My Comm. Exp. September 5, 2023

Notary Public

 
    

 

 

Affiant 40593
SERVICE LIST
Counsel of Record for Petitioner Stanford Vina Ranch Irrigation Company:

Paul R. Minasian

Minasian, Meith, Soares, Sexton & Cooper, LLP
1681 Bird Street

P.O. Box 1679

Oroville, CA 95965

(530) 533-2885

pminasian@minasianlaw.com

Counsel of Record for Respondents State of California, et al.:

William N. Jenkins

California Office of the Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102

(415) 510-3466

william.jenkins@doj.ca.gov

Counsel of Record for Amicus Curiae Northern California Water Association

Steven P. Saxton

Downey Brand LLP

621 Capitol Mall, 18th Floor
Sacramento, CA 95814
(916) 444-1000
ssaxton@downeybrand.com
